Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




 MEDICAID MANAGED CARE:
FRAUD AND ABUSE CONCERNS
REMAIN DESPITE SAFEGUARDS




                   Daniel R. Levinson
                    Inspector General

                     December 2011
                    OEI-01-09-00550
   E X E C U T I V E                   S U M M A R Y


                  OBJECTIVES
                  To determine:
                  1. to what extent selected Medicaid managed care entities (MCE) took
                     steps to meet Federal program integrity requirements,
                  2. how States oversee MCEs’ fraud and abuse safeguards, and
                  3. what major concerns that MCEs and States have regarding fraud
                     and abuse in Medicaid managed care.


                  BACKGROUND
                  Medicaid expenditures almost doubled during the past decade, from
                  over $200 billion in 2000 to $374 billion in 2009. States have
                  increasingly adopted managed care as a response to these growing
                  expenditures. States may contract with different types of MCEs to
                  provide health care services on a statewide or a community basis. The
                  Centers for Medicare & Medicaid Services (CMS) requires MCEs to
                  meet specific program integrity requirements as a condition for
                  receiving payment. These requirements include a written compliance
                  plan, effective training and education for MCE employees, and internal
                  monitoring and auditing. CMS also requires MCEs and other Medicaid
                  providers to disclose to States certain information related to ownership
                  and control. CMS’s Medicaid Integrity Group (MIG) conducts program
                  integrity reviews of States and MCEs. In 2000, CMS issued guidelines
                  for addressing Medicaid managed care fraud and abuse. States are
                  directly responsible for monitoring MCE operations.
                  We reviewed MIG’s files from its program integrity reviews of a
                  purposive sample of 13 States and 46 MCEs. We sent a questionnaire
                  to those 46 MCEs and received responses from 45. We also conducted
                  structured telephone interviews with the 13 States, all 10 CMS regional
                  offices, and MIG.


                  FINDINGS
                  All MCEs in our sample reported taking steps to meet Federal
                  program integrity requirements. All 46 MCEs in our sample reported
                  to MIG that they met Federal program integrity requirements. The
                  45 MCEs that responded to our questionnaire provided fraud and abuse
                  safeguard training to their staffs in 2010, and 41 also offered such
                  training to providers in their networks in 2010. In 2009, 33 MCEs

OEI-01-09-00550   MEDICAID MANAGED CARE: FRAUD   AND   ABUSE CONCERNS REMAIN DESPITE SAFEGUARDS   i
E   X   E C     U T   I    V   E      S   U M     M      A     R Y


                          reported cases of suspected fraud and abuse to their State Medicaid
                          agencies, with a median of 9 cases. Twenty MCEs recovered payments
                          from providers in 2009 that resulted from fraud and abuse.
                          All 13 States in our sample reported taking steps to oversee MCEs’
                          fraud and abuse safeguards. All 13 States conduct desk reviews of
                          MCEs’ compliance plans, and 11 States conduct onsite MCE reviews.
                          All 13 States reported requiring that MCEs disclose ownership
                          information (8 of the States recently updated their reporting
                          requirements as a result of MIG’s program integrity reviews). Eleven
                          States hold recurring meetings with MCEs; these meetings often
                          include fraud and abuse training.
                          Although MCEs and States are taking steps to address fraud and
                          abuse in managed care, they remain concerned about their
                          prevalence. We asked MCEs, States, and CMS to identify their major
                          concerns regarding Medicaid managed care fraud and abuse. The
                          primary concern related to services billed but not rendered. MIG also
                          identified this vulnerability in its program integrity reviews. MCEs and
                          States expressed concerns about provider and beneficiary fraud and
                          abuse, including rendering services that are not medically necessary,
                          upcoding by providers, questionable beneficiary eligibility, and
                          prescription drug abuse by beneficiaries. The major concerns identified
                          in our review largely reflect only one of six areas highlighted in CMS’s
                          2000 guidelines.


                          RECOMMENDATIONS
                          CMS should:
                          Require that State contracts with MCEs include a method to verify
                          with beneficiaries whether services billed by providers were
                          received. CMS could require States to implement one of several
                          options, such as sending explanations of medical benefits to
                          beneficiaries. Other options could include contacting beneficiaries by
                          telephone or mailing them a questionnaire.
                          Update guidance to reflect concerns expressed by MCEs and
                          States. CMS could update and reissue the fraud and abuse guidelines
                          it published in 2000. CMS could also share best practices and
                          innovative methods that States and MCEs have used to address fraud
                          and abuse concerns and strengthen program integrity oversight.



    OEI-01-09-00550       MEDICAID MANAGED CARE: FRAUD   AND   ABUSE CONCERNS REMAIN DESPITE SAFEGUARDS   ii
E   X   E C   U T   I   V   E     S   U M     M     A     R Y



                    AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                    RESPONSE
                    CMS concurred with both recommendations. CMS stated that it will
                    advise States to work with their MCEs to determine and implement
                    effective strategies for verifying that services billed by network
                    providers are received. CMS also stated that it has been developing
                    a strategy to effectively address managed care program integrity and
                    will revise its guidelines once that strategy is complete. Finally, CMS
                    stated that it provides a compendium of States’ noteworthy and
                    effective practices in key program integrity areas, including Medicaid
                    managed care, on its Web site. We made no changes to the report
                    based on CMS’s comments.




OEI-01-09-00550     MEDICAID MANAGED CARE: FRAUD   AND   ABUSE CONCERNS REMAIN DESPITE SAFEGUARDS   iii
   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ............................................ 1



         FINDINGS .................................................. 8
                   All MCEs in our sample reported taking steps to meet
                   Federal program integrity requirements . . . . . . . . . . . . . . . . . . . . . 8

                   All 13 States in our sample reported taking steps to oversee
                   MCEs’ fraud and abuse safeguards. . . . . . . . . . . . . . . . . . . . . . . . . 10

                   Although MCEs and States are taking steps to address fraud
                   and abuse in managed care, they remain concerned about their
                   prevalence . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
                   Agency Comments and Office of Inspector General Response. . . . 16



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
                   A: Percentage of Medicaid Beneficiaries Enrolled in Managed
                      Care Organizations as of June 30, 2008 . . . . . . . . . . . . . . . . . . 17

                   B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
   I N T R O D U C T I O N


                  OBJECTIVES
                  To determine:
                  1. to what extent selected Medicaid managed care entities (MCE) took
                     steps to meet Federal program integrity requirements,
                  2. how States oversee MCEs’ fraud and abuse safeguards, and
                  3. what major concerns that MCEs and States have regarding fraud
                     and abuse in Medicaid managed care.


                  BACKGROUND
                  Medicaid expenditures almost doubled in the past decade, from over
                  $200 billion in 2000 to $374 billion in 2009. 1 States have increasingly
                  adopted managed care as a response to these growing expenditures.
                  Managed care is a health delivery system that aims to maximize
                  efficiency by negotiating rates, coordinating care, and managing the use
                  of services. State Medicaid agencies contract with MCEs to provide
                  comprehensive health services in return for a fixed, prospective
                  payment (capitated payment) for each enrolled beneficiary.
                  Medicaid Managed Care
                  As of June 2009, 36 million Medicaid beneficiaries (72 percent) were
                  enrolled in managed care. 2 Some States, such as Tennessee, enroll all
                  Medicaid beneficiaries in managed care, whereas others, such as
                  Wyoming, do not enroll any. 3
                  States may contract with different types of MCEs to provide health care
                  services on a statewide or a community basis. 4 Two types of MCEs are
                  subject to specific Federal program integrity requirements: Managed
                  Care Organizations (MCO) and Prepaid Inpatient Health Plans
                  (PIHP). 5




                    1 Centers for Medicare & Medicaid Services (CMS),National Health Expenditures by
                  Type of Service and Source of Funds, CY 1960–2009. Accessed at http://www.cms.gov on
                  April 21, 2011.
                    2 CMS,   Medicaid Managed Care Enrollment as of June 30, 2009. Accessed at
                  http://www.cms.gov on April 14, 2011.
                    3 Ibid.
                    4 Social Security Act § 1932(a)(3).
                    5 42 CFR § 438.608.




OEI-01-09-00550   MEDICAID MANAGED CARE: FRAUD    AND   ABUSE CONCERNS REMAIN DESPITE SAFEGUARDS         1
I   N T    R O        D   U     C T      I   O N


                              An MCO provides comprehensive medical services through a prepaid
                              risk contract with the State. Under a risk contract, the contractor
                              assumes the risk for the cost of covered services and incurs a loss if the
                              cost exceeds the payments under the contract. 6 A PIHP generally
                              provides inpatient hospital or institutional services and does not enter
                              into a comprehensive risk contract with the State. 7 For example, a
                              mental health PIHP would provide only inpatient mental health
                              services.8 In this report, we refer to MCOs and PIHPs collectively as
                              managed care entities, or MCEs.
                              Fraud and Abuse in Medicaid Managed Care
                              In 2000, CMS issued Guidelines for Addressing Fraud and Abuse in
                              Medicaid Managed Care. 9 In the guidelines, CMS adapted the general
                              Medicaid definitions of fraud and abuse 10 to the managed care
                              environment:
                              • Fraud means any type of intentional deception or
                                misrepresentation made by an entity or person with the knowledge
                                that the deception could result in some unauthorized benefit to the
                                entity, himself, or some other person. 11
                              • Abuse means practices that are inconsistent with sound fiscal,
                                business, or medical practices and that result in unnecessary costs
                                to Medicaid or reimbursement for services that are not medically
                                necessary or that fail to meet professional standards or contractual
                                obligations for health care. 12
                              The guidelines also identified six areas of concern: (1) managed care
                              contract procurement, (2) marketing and enrollment,
                              (3) underutilization of services, (4) claims submission and billing
                              procedures, (5) fee-for-service payments within managed care, and



                                6 42 CFR § 438.2.
                                7 Ibid.
                                8 Ibid.
                                9 CMS, National Medicaid Fraud and Abuse Initiative,Guidelines for Addressing Fraud
                              and Abuse in Medicaid Managed Care, pp. 10–11, October 2000.
                                10 42 CFR § 455.2 defines fraud and abuse for general Medicaid purposes.
                                11 Fraud or abuse can be committed by a contractor, a subcontractor, a provider, an

                              MCE, a State employee, or a Medicaid beneficiary/enrollee. CMS, National Medicaid Fraud
                              and Abuse Initiative, Guidelines for Addressing Fraud and Abuse in Medicaid Managed
                              Care, pp. 10–11, October 2000, p. 12.
                                12 Ibid., p. 13.




    OEI-01-09-00550           MEDICAID MANAGED CARE: FRAUD   AND   ABUSE CONCERNS REMAIN DESPITE SAFEGUARDS           2
I   N T    R O        D   U     C T     I   O   N


                              (6) embezzlement and theft. They provided examples for each area, as
                              well as some successfully prosecuted cases. 13
                              The Florida Office of Inspector General noted “the need to recognize the
                              distinctively different issues in fraud detection and prevention in a
                              capitated environment versus the traditional fee-for-service
                              environment.” 14 For example, in a capitated system, providers could
                              commit fraud by providing as few services as possible, or by treating
                              only healthier patients.15 CMS also noted that fraud could harm States’
                              ability to operate managed care programs by threatening MCEs’
                              viability. Additionally, fraudulent MCE data could raise State costs.
                              For example, if MCEs manipulate data to give the appearance of
                              providing services to beneficiaries who are not enrolled, the MCEs
                              would receive enhanced payments in the future. 16
                              Medicaid Managed Care Program Integrity Requirements
                              To protect against fraud and abuse, Federal regulations require MCOs
                              and PIHPs to comply with program integrity requirements as a
                              condition of receiving payment. 17 In establishing program integrity
                              requirements, CMS viewed MCOs and PIHPs as larger, more complex
                              types of MCEs with higher enrollment levels, greater administrative
                              resources, and higher chances of needing sophisticated methods to
                              combat fraud and abuse. 18 They must have administrative and
                              management procedures, including mandatory compliance plans, that
                              contain the following seven program integrity provisions:
                              • written policies, procedures, and standards of conduct that
                                articulate the organization’s commitment to comply with all
                                applicable Federal and State standards;
                              • designation of a compliance officer and a compliance committee that
                                are accountable to senior management;




                                13 Ibid, p. 13.
                                14 Florida Agency for Health Care Administration,   Office of Inspector General Annual
                              Report 2010, p. 47.
                                15 National Association of Medicaid Fraud Control Units,   Model Criminal Enforcement
                              Statutes For Managed Care, p. i, October 1996.
                                16 CMS, National Medicaid Fraud and Abuse Initiative,Guidelines for Addressing Fraud
                              and Abuse in Medicaid Managed Care, pp. 10–11, October 2000.
                                17 42 CFR § 438.602. This section also applies to two other types of MCEs.
                                18 67 Fed. Reg. 40989, 41066 (June 14, 2002).




    OEI-01-09-00550           MEDICAID MANAGED CARE: FRAUD   AND   ABUSE CONCERNS REMAIN DESPITE SAFEGUARDS              3
I   N T    R O        D   U     C T     I   O   N


                              • effective training and education for the compliance officer and the
                                organization’s employees;
                              • effective lines of communication between the compliance officer and
                                the organization’s employees;
                              • enforcement of standards through well-publicized disciplinary
                                guidelines;
                              • internal monitoring and auditing; and

                              • prompt response to detected offenses, and for development of
                                corrective actions relating to the MCO’s or the PIHP’s contract. 19
                              Medicaid Disclosure Requirements
                              CMS also requires every provider to disclose certain information related
                              to ownership and control, business transactions, and persons convicted
                              of crimes. Each provider must furnish information to the State on:
                              • any person with an ownership or control interest or any
                                subcontractor in which it has direct or indirect ownership of
                                5 percent or more, 20
                              • any subcontractor with which it had business transactions totaling
                                more than $25,000 in the prior year, 21 and
                              • any person with ownership or control interest who has been
                                convicted of a criminal offense related to Federal health programs.22
                              State Medicaid Program Integrity Efforts
                              States are directly responsible for monitoring MCE operations. 23 States
                              must have a method for verifying with beneficiaries whether services
                              billed by providers were received.24, 25 As of 2007, 27 States
                              incorporated program integrity activities under their State Medicaid


                                19 42 CFR § 438.608.
                                20 42 CFR § 455.104. For purposes of provider disclosure requirements under this
                              section, the definition of Medicaid provider under 42 CFR § 455.101 does not include
                              individual practitioners or groups of practitioners.
                                21 42 CFR § 455.105.
                                22 42 CFR § 455.106.
                                23 42 CFR § 438.66.
                                24 42 CFR § 455.20.
                                25 CMS’s Medicaid Integrity Group (MIG) does not interpret 42 CFR § 455.20 to apply to
                              managed care entities. See: Medicaid Integrity Program, Florida Comprehensive Program
                              Integrity Review Final Report, p. 7, September 2009 and Medicaid Integrity Program,
                              Washington Comprehensive Program Integrity Review Final Report, p. 6.



    OEI-01-09-00550           MEDICAID MANAGED CARE: FRAUD   AND   ABUSE CONCERNS REMAIN DESPITE SAFEGUARDS           4
I   N T    R O        D   U     C T     I   O   N


                              agencies, 7 used an Inspector General model, and 16 used a hybrid of
                              both to monitor their Medicaid programs. 26
                              In addition, every State must either create a State Medicaid Fraud
                              Control Unit (MFCU) or demonstrate that operation of a MFCU would
                              not be cost effective.27 A MFCU’s mission is to investigate and
                              prosecute Medicaid provider fraud and incidences of patient abuse and
                              neglect. 28 Forty-nine States and the District of Columbia operate
                              MFCUs. The majority of MFCUs are located in Offices of State
                              Attorneys General.
                              Federal Medicaid Program Integrity Efforts
                              CMS regional offices (RO) are responsible for reviewing all State
                              contracts with MCEs. 29 ROs review the contracts using a checklist to
                              ensure that the contracts meet all applicable Federal criteria, including
                              program integrity provisions.
                              The Deficit Reduction Act of 2005 (DRA) created the Medicaid Integrity
                              Program, operated by MIG. 30 Since 2006, MIG has conducted triennial
                              onsite reviews of States’ program integrity operations. In addition to
                              assessing compliance with Federal requirements, the reviews identify
                              vulnerabilities and effective practices, help States improve program
                              integrity, and identify opportunities for CMS to provide technical
                              assistance to States. After each review, MIG issues a report to the
                              State. 31
                              In 2007, CMS collaborated with the Department of Justice to develop
                              the Medicaid Integrity Institute. The Institute’s mission is to provide
                              effective training to meet the needs of State Medicaid program integrity
                              staff, with the goal of raising national program integrity performance
                              standards and professionalism. It offers training at no cost to States on




                                26 CMS, Medicaid Integrity Group,
                                                                State Program Integrity Assessment: Federal Fiscal
                              Year 2007 Executive Summary, December 2009. Accessed at http://www.cms.gov on
                              April 14, 2011.
                                27 Social Security Act § 1902(a)(61).
                                28 Social Security Act § 1903(q).
                                29 42 CFR § 438.6(a).
                                30 Social Security Act § 1936, added by section 6034 of the DRA, P.L. 109-171.
                                31 CMS, Medicaid Integrity Program, Program Integrity Review Annual Summary,

                              May 2009. Accessed at http://www.cms.gov on April 15, 2011.



    OEI-01-09-00550           MEDICAID MANAGED CARE: FRAUD   AND   ABUSE CONCERNS REMAIN DESPITE SAFEGUARDS          5
I   N T    R O        D   U     C T       I   O   N


                              topics such as fraud investigation, data mining and analysis, and case
                              development. 32


                              METHODOLOGY
                              Scope
                              Our evaluation focused on MCEs that had Medicaid contracts in
                              selected States in 2009 and the States that contracted with them.
                              Sample
                              We identified 37 States and the District of Columbia (States) that
                              contract with MCEs subject to the program integrity requirements in
                              42 CFR § 438.608. We divided these States into quartiles based on the
                              percentage of their Medicaid beneficiaries enrolled in MCEs. We then
                              took a purposive sample of 13 States by selecting 4 States from the top
                              quartile and 3 States from each of the other quartiles so as to include
                              States from every CMS region (see Appendix A). These 13 States were
                              also subject to a MIG State program integrity review in fiscal year
                              2009 or 2010. From each of these 13 States, we chose up to 6 MCEs
                              that were included in the MIG review; we purposively selected the
                              MCEs so as to include both larger and smaller ones. In States with
                              fewer than six MCEs, we included all of them. This resulted in a final
                              sample of 46 MCEs.
                              Data Sources and Collection
                              MCEs. We mailed a questionnaire in October 2010 to the 46 MCEs in
                              our sample asking about actions they take to protect against fraud and
                              abuse in their organizations and networks and about their major
                              concerns regarding fraud and abuse. Two of the forty-six MCEs were no
                              longer in operation; we received completed questionnaires from the
                              remaining 44 MCEs. One of these MCEs used two subcontractors for its
                              fraud and abuse activities; each subcontractor completed its own
                              questionnaire, which we counted separately, for a total of
                              45 respondents.
                              States. We conducted structured telephone interviews with Medicaid
                              agency staff from the 13 States in our sample. We asked how they
                              oversee MCEs and what other actions they take to prevent fraud and




                                32   Medicaid Integrity Institute Fact Sheet. Accessed at http://www.justice.gov on
                              April 13, 2011.


    OEI-01-09-00550           MEDICAID MANAGED CARE: FRAUD    AND   ABUSE CONCERNS REMAIN DESPITE SAFEGUARDS          6
I   N T    R O        D   U    C T     I   O   N


                              abuse. We conducted the interviews between December 2010 and
                              March 2011.
                              CMS ROs. We conducted structured telephone interviews with
                              Medicaid staff at each of the 10 CMS ROs. We conducted the interviews
                              between March and April 2011.
                              CMS MIG. We reviewed MIG’s program integrity review files for the
                              States and MCEs in our sample. These files include survey modules
                              completed by the States and MCEs, as well as additional supporting
                              documentation. We reviewed the files to collect data on State
                              requirements addressing Federal program integrity requirements,
                              Federal disclosure requirements, MCE reporting of suspected fraud and
                              abuse, and training and education that States provided to the MCEs.
                              We also reviewed the MIG final reports on CMS’s Web site to identify
                              areas of State noncompliance and vulnerabilities; MIG had issued final
                              reports for 9 of the 13 States in our sample.
                              Analysis
                              We performed qualitative data analysis on responses from State and
                              CMS interviews and on responses from the MCE questionnaires. For
                              example, we reviewed the responses for common themes. We analyzed
                              MIG data and MCE questionnaire responses by performing frequency
                              counts of State and MCE responses.
                              Limitations
                              The results of our State and MCE analyses are limited to the entities we
                              reviewed; we cannot project the results on a national basis. We did not
                              independently verify the data we collected.
                              Standards
                              This study was conducted in accordance with the Quality Standards for
                              Inspection and Evaluation issued by the Council of the Inspectors
                              General on Integrity and Efficiency.




    OEI-01-09-00550           MEDICAID MANAGED CARE: FRAUD   AND   ABUSE CONCERNS REMAIN DESPITE SAFEGUARDS   7
      F I N D I N G S

All MCEs in our sample reported taking steps to            All 46 MCEs in our sample
    meet Federal program integrity requirements            reported to MIG that they had
                                                           administrative and management
                     arrangements in place to prevent fraud and abuse, as required by
                     Federal regulations. 33 These arrangements included, but were not
                     limited to, compliance plans, written policies and procedures, and
                     training of MCE staff and providers. In our questionnaire, we asked
                     MCEs for more detail about the type and extent of fraud and abuse
                     safeguard training that MCEs provided and the extent to which MCEs
                     reported suspected fraud and abuse cases to their States’ Medicaid
                     Agencies.
                     All MCEs provided fraud and abuse safeguard training to their staffs; most
                     MCEs also offered this training to providers in their networks
                     All 45 MCEs that responded to our questionnaire reported providing
                     fraud and abuse training to staff in 2010, as required by the program
                     integrity regulations. The training provided by every MCE addressed
                     identifying and reporting suspected fraud and abuse. Most MCEs also
                     included training on protecting confidential beneficiary information and
                     on ethics. See Table 1 for a list of topics included in MCE staff training.
                     Table 1: Topics of MCE Staff Training on Fraud and Abuse
                     Prevention (n=45)

                       Topic                                                              Number of MCEs

                       Identifying Suspected Fraud and Abuse                                               45

                       Reporting Suspected Fraud and Abuse                                                 45

                       Ethics                                                                              43

                       Protecting Confidential Beneficiary Information                                     43

                       Compliance Plan Review                                                              39

                       Other                                                                               20

                     Source: OIG survey of MCEs, 2010.


                     The program integrity regulations require training to be effective;
                     37 of the 45 MCEs that responded to our questionnaire reported
                     evaluating the effectiveness of staff training. 34 MCEs employed several


                       33 42 CFR § 438.608.
                       34 42 CFR § 438.608. Although the regulation requires training to be effective, it does

                     not require MCEs to evaluate the effectiveness of training.



   OEI-01-09-00550   MEDICAID MANAGED CARE: FRAUD   AND   ABUSE CONCERNS REMAIN DESPITE SAFEGUARDS               8
F   I   N   D I       N G    S


                            methods to evaluate the effectiveness of training, such as surveying
                            (23 MCEs) and testing (20 MCEs) staff on the topics covered. Eight
                            MCEs also analyzed staff job performance after the training, and five
                            MCEs used some other method.
                            Most MCEs also reported that they offered fraud and abuse safeguard
                            training to providers in their networks in 2010 (41 of the 45 MCEs).
                            The most common topics in provider training were coding accuracy,
                            recognizing suspected beneficiary fraud, and protecting confidential
                            beneficiary information. See Table 2 for a list of topics addressed
                            during provider training.
                            Table 2: Topics of MCE Provider Training on Fraud and Abuse
                            Prevention (n=41)

                                 Topic                                                             Number of MCEs

                                 Coding Accuracy                                                               36

                                 Recognizing Suspected Beneficiary Fraud                                       31

                                 Protecting Confidential Beneficiary Eligibility                               31

                                 Federal Fraud and Abuse Laws                                                  30

                                 Determining Beneficiary Eligibility                                           30

                                 Other                                                                         13

                            Source: OIG survey of MCEs, 2010.


                            In contrast with staff training, only 15 MCEs evaluated the
                            effectiveness of provider training. The most common method that
                            MCEs used to measure effectiveness was claims analysis (seven MCEs).
                            These MCEs conducted analyses to determine whether billing errors
                            decreased following training. Other methods that MCEs used were
                            conducting provider satisfaction surveys (six MCEs), performing audits
                            (four MCEs), and measuring beneficiary satisfaction via surveys and
                            appeal data (three MCEs). Four MCEs used other methods to evaluate
                            provider training.
                            MCEs in our sample identified and reported cases of suspected fraud and
                            abuse to their States and recovered payments from providers that resulted
                            from fraud and abuse
                            In 2009, 33 of the 45 MCEs that responded to our questionnaire
                            reported cases of suspected fraud and abuse to their States’ Medicaid
                            agencies, and 22 MCEs reported suspected cases to their States’
                            MFCUs. MCEs reporting to State Agencies ranged from 1 case of


    OEI-01-09-00550         MEDICAID MANAGED CARE: FRAUD      AND   ABUSE CONCERNS REMAIN DESPITE SAFEGUARDS        9
F     I   N   D I     N G   S


                        suspected fraud and abuse to 140 cases, with a median of 9 cases; MCE
                        reporting to MFCUs ranged from 1 case to 290 cases, with a median of
                        7 cases. Twenty MCEs reported that they recovered payments from
                        providers in 2009 ranging from $2,615 to $2,769,900, with a median
                        recovery payment of $96,302.


      All 13 States in our sample reported taking             States contract with MCEs to
        steps to oversee MCEs’ fraud and abuse                provide Medicaid services and are
                                      safeguards              responsible for oversight of all
                                                              contract provisions. Program
                        integrity requirements are included in these contracts.
                        All 13 States conduct desk reviews of MCEs’ compliance plans
                        Six States that we interviewed review compliance plans annually. The
                        remaining seven States vary in when they conduct their reviews; most
                        review plans when MCEs apply to Medicaid and when MCEs update
                        their plans.
                        Regardless of the frequency of their reviews, all States assess whether
                        compliance plans contain the relevant Federal requirements. Some
                        States look for provisions that exceed Federal requirements and that
                        address fraud and abuse. These include measures to ensure that
                        providers have sound fiduciary practices, methods to identify providers
                        with unusual billing patterns and beneficiaries with unusual usage
                        patterns, and goals to improve program integrity for the upcoming year.
                        Eleven of the thirteen States conduct onsite reviews
                        States told us that a compliance plan has little value if it is not
                        implemented, so many conduct onsite reviews of MCEs to augment their
                        desk reviews of compliance plans. Eleven States in our sample visit
                        MCEs to ensure they comply with Federal program integrity
                        requirements. Seven of those States conduct the reviews themselves;
                        the other four use an external quality review organization (EQRO) to
                        conduct site visits and ensure program integrity compliance.35 Six of
                        the eleven States conduct onsite reviews annually. The others vary in
                        their onsite review cycles.




                            35 EQROs are independent entities with which States contract to conduct statutorily
                        mandated reviews of Medicaid MCE quality outcomes, timeliness, and access to items and
                        service. Social Security Act § 1932(c)(2)(A)(i).



    OEI-01-09-00550     MEDICAID MANAGED CARE: FRAUD    AND   ABUSE CONCERNS REMAIN DESPITE SAFEGUARDS            10
F   I   N   D I       N G    S


                            During site visits, States ensure that MCEs implement the provisions of
                            their compliance plans. For example, to assess the effectiveness of MCE
                            employee fraud and abuse training, States ask MCE staff where
                            compliance plans are located and to whom staff report fraud. Some
                            States also evaluate the timeliness and content of training by
                            determining whether MCEs train employees upon hiring and annually
                            thereafter, as well as whether training includes pertinent Federal
                            requirements, such as the False Claims Act. To assess whether lines of
                            communication are effective, States evaluate MCEs’ fraud hotlines. One
                            State reviews MCE fraud and abuse safeguard materials provided to
                            beneficiaries to ensure that the materials are appropriate and
                            understandable.
                            All 13 States reported requiring that MCEs disclose ownership information
                            Although all 13 States in our sample require MCEs to disclose required
                            information on ownership and control, they vary in how often they
                            require MCEs to submit data. Eight States require MCEs and
                            providers to submit ownership information during their initial
                            application to their States’ Medicaid programs but vary in their
                            submission requirements thereafter. These States may subsequently
                            require submission annually or as ownership changes. States that do
                            not require ownership disclosure at enrollment typically require it
                            annually, monthly, or as changes occur.
                            Eight States in our sample recently updated their reporting
                            requirements as a result of MIG’s program integrity review. Four
                            strengthened reporting requirements, primarily by enhancing contract
                            language to specifically address all ownership disclosure provisions,
                            such as disclosure of owners’ siblings. Two States implemented new
                            processes to require that MCEs report ownership information. Two
                            States amended their contracts to specify sanctions and other penalties
                            for noncompliance.
                            Some States told us that they would like further guidance from CMS
                            regarding disclosure requirements. For example, one State reported
                            that it is unclear how far downstream MCEs should disclose ownership
                            information. Another State was unsure how to treat information about
                            owners that are not individuals, such as publicly traded companies or
                            large hospitals.
                            Most States found MCEs to be compliant with disclosure requirements
                            (the two States that recently implemented ownership disclosure
                            requirements had not yet evaluated compliance). Although States did

    OEI-01-09-00550         MEDICAID MANAGED CARE: FRAUD   AND   ABUSE CONCERNS REMAIN DESPITE SAFEGUARDS   11
 F   I   N   D I       N G    S


                             not need to take action against noncompliant MCEs, they told us that
                             they would use corrective actions, if needed, including sanctions,
                             contract termination, and corrective action plans.
                             States reported interacting regularly with MCEs
                             Eleven of thirteen States hold recurring meetings with MCEs. Nine
                             States incorporate training into these meetings. The meetings typically
                             involve MCE and State concerns, review of ongoing fraud and abuse
                             cases, and provide training on identifying fraud and abuse and on
                             reporting requirements.
                             MCE compliance officers typically attend these meetings; MFCU staff
                             sometimes attend, as well. Meetings typically are held monthly or
                             quarterly. Five of the eleven States have more than one recurring
                             meeting, such as quarterly meetings, which all their MCEs attend, and
                             separate monthly meetings with each MCE.
                             Ten of thirteen States interact with MCEs on an ad hoc basis, mostly to
                             discuss specific fraud and abuse cases and other MCE concerns. One of
                             the two States that does not have recurring meetings with MCEs
                             reported that it interacts with them almost daily.


Although MCEs and States are taking steps to                      We asked MCEs and States to
   address fraud and abuse in managed care,                       identify their major concerns
  they remain concerned about its prevalence                      regarding Medicaid managed care
                                                                  fraud and abuse. These concerns
                             included services billed but not rendered, medically unnecessary
                             services, and questionable beneficiary eligibility. CMS has offered
                             guidelines for addressing Medicaid managed care fraud and abuse in
                             the past, although the major concerns identified in our review largely
                             reflect only one area highlighted in CMS’s guidelines: claims
                             submission and billing procedures.
                             The primary concern—shared by MCEs and States—relates to services
                             billed but not rendered
                             MCEs and States reported concerns with providers that bill MCEs for
                             medical services not actually provided to beneficiaries. Twenty-six
                             MCEs and four States shared this concern. The MIG program integrity
                             reviews identified services billed but not rendered as a vulnerability in
                             eight of the nine States in our sample for which final reports were
                             available. Further, MIG reviews found that only 19 of the 46 MCEs in
                             our sample verified with beneficiaries that services were received.


     OEI-01-09-00550         MEDICAID MANAGED CARE: FRAUD   AND   ABUSE CONCERNS REMAIN DESPITE SAFEGUARDS   12
F   I   N   D I       N G    S


                            One tool MCEs can use to try to verify whether services were received is
                            an explanation of medical benefits (EOMB). MCEs send EOMBs to
                            beneficiaries, who can then inform the MCEs if they did not receive the
                            listed services. MIG reviews found that 8 of the 46 MCEs in our sample
                            used EOMBs to verify whether services were received. Two of these
                            MCEs recovered payments as a result of this practice.
                            Without such verification, States and MCEs have no way of knowing
                            whether they are paying for fraudulent claims or whether beneficiaries
                            are receiving services. Fraudulent claims unnecessarily inflate the
                            capitation rate paid to MCEs.
                            In responses to our questionnaire, MCEs reported using other means to
                            address this concern, such as reviewing their payment systems and
                            working with outside entities, for example, OIG or State medical boards.
                            MCEs and States expressed concerns about provider and beneficiary fraud
                            and abuse
                            MCEs reported additional concerns regarding provider fraud, such as
                            services provided that were not medically necessary and upcoding.
                            MCEs also reported concerns regarding beneficiary fraud, such as
                            beneficiary eligibility and drug abuse. See Table 3 for these additional
                            concerns.
                            The most common method by which MCEs reported addressing
                            medically unnecessary services and upcoding was through analysis of
                            their payment systems, such as audits or claims analysis. MCEs also
                            used prior authorization processes and medical record reviews. To
                            address upcoding, MCEs educated providers about proper coding and
                            alerted providers to atypical billing patterns.
                            Table 3: Additional MCE Concerns About Medicaid Managed
                            Care Fraud and Abuse


                                 Concern                                                            Number of MCEs

                                 Services Provided to Beneficiaries That Are Not
                                                                                                                16
                                 Medically Necessary

                                 Upcoding by Providers                                                          10

                                 Verifying Beneficiary Eligibility                                               8

                                 Beneficiary Drug Abuse and/or Diversion                                         7

                            Source: OIG survey of MCEs, 2010.




    OEI-01-09-00550         MEDICAID MANAGED CARE: FRAUD      AND    ABUSE CONCERNS REMAIN DESPITE SAFEGUARDS        13
F   I   N   D I       N G    S


                            To address beneficiary eligibility concerns, MCEs encouraged providers
                            to verify eligibility when treating new patients and offered resources
                            such as a provider Web portal and telephone line with eligibility
                            verification capabilities. To address drug abuse and diversion, MCEs
                            conducted monitoring activities, such as providing case management
                            services to beneficiaries, analyzing data to identify high-volume
                            prescription trends of providers, and investigating suspected cases.
                            MCEs also collaborated with State and Federal agencies in reporting
                            and monitoring suspected drug abuse and diversion cases.
                            About half of the States we interviewed expressed concerns regarding
                            beneficiary fraud and abuse. Examples include beneficiaries’ fraudulently
                            enrolling in Medicaid, abusing pharmaceuticals, and excessively visiting
                            hospital emergency rooms. States expressed frustration that they could
                            not apply the same sanctions to address beneficiary fraud as they could
                            provider fraud.




    OEI-01-09-00550         MEDICAID MANAGED CARE: FRAUD   AND   ABUSE CONCERNS REMAIN DESPITE SAFEGUARDS   14
   R E C O M M E N D A T I O N S



                  Managed care presents challenges in addressing fraud that differ from
                  those in fee-for-service Medicaid. For example, managed care’s
                  capitated payments create incentives for providers to render fewer
                  services to beneficiaries, and States must bear financial risk that could
                  threaten the viability of their Medicaid managed care programs. CMS
                  guidelines on addressing Medicaid managed care fraud and abuse have
                  not been updated since 2000.
                  As States increasingly use managed care to deliver Medicaid services,
                  implementing safeguards to protect against fraud and abuse remains
                  essential. MCEs, States, and CMS all have a stake in protecting the
                  integrity of the program. Overall, we found that MCEs and States
                  reported taking steps to monitor and protect against fraud and abuse.
                  However, they also expressed major concerns.
                  More than half of the MCEs in our sample reported concerns with
                  services billed but not provided to beneficiaries. CMS’s MIG similarly
                  identified this vulnerability, finding that most States and MCEs in our
                  sample do not verify with managed care beneficiaries whether services
                  were received, despite regulations requiring States to do so for fee-for-
                  service Medicaid.
                  CMS guidelines on addressing Medicaid managed care fraud and abuse
                  identified six areas of concern. However, the majority of concerns
                  identified in our review fall under only one of these six areas: claims
                  submission and billing procedures. The other five areas were seldom, if
                  at all, reflected in the concerns. Therefore, we recommend that CMS:
                  Require that State contracts with MCEs include a method to verify with
                  beneficiaries whether they received services billed by providers
                  CMS could require States to implement one of several options. One is
                  for MCEs to send EOMBs to beneficiaries. As one State Agency told us,
                  EOMBs are the “best, most effective tool” to determine whether billed
                  services were actually received. Other options include contacting
                  beneficiaries by telephone or mailing them a questionnaire. To
                  minimize the cost of verifying services, MCEs could contact a
                  representative sample of beneficiaries. MCEs could also sample
                  beneficiaries based on billing analyses.
                  Update guidance to reflect concerns expressed by MCEs and States
                  CMS could update and reissue its Guidelines for Addressing Fraud and
                  Abuse in Medicaid Managed Care. Because most of the concerns


OEI-01-09-00550   MEDICAID MANAGED CARE: FRAUD   AND   ABUSE CONCERNS REMAIN DESPITE SAFEGUARDS   15
R   E C     O    M    M   E   N D    A T    I   O   N     S


                          reported to us fall under the “Claims Submission and Billing
                          Procedures” section, CMS could use that as a starting point from which
                          to expand. CMS could also share best practices and innovative methods
                          that States and MCEs have used to address fraud and abuse concerns
                          and strengthen program integrity oversight. CMS could also share best
                          practices via the Medicaid Integrity Institute and its Technical Advisory
                          Groups (TAG). CMS has two relevant TAGs—one focused on Medicaid
                          managed care and one on fraud and abuse—that could collaborate to
                          share best practices across all their member States.

                          AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                          RESPONSE
                          CMS concurred with both recommendations, stating that it will
                          advise States to work with their MCEs to determine and implement
                          effective strategies for verifying that services billed by network
                          providers are received. CMS will work with States to identify
                          efficient and effective strategies based on States’ and MCEs’
                          experiences. CMS also stated that it has been developing a strategy
                          to effectively address managed care program integrity and will revise
                          its guidelines once that strategy is complete. Finally, CMS stated
                          that it provides a compendium of States’ noteworthy and effective
                          practices in key program integrity areas, including Medicaid managed
                          care, on its Web site. We made no changes to the report based on
                          CMS’s comments. See Appendix B for the full text of CMS’s
                          comments.




    OEI-01-09-00550       MEDICAID MANAGED CARE: FRAUD   AND   ABUSE CONCERNS REMAIN DESPITE SAFEGUARDS   16
       A P P E N D I X ~ A
 Percentage of Medicaid Beneficiaries Enrolled in Managed Care Organizations
 as of June 30, 2008
                                                                                       Medicaid                     Percentage
                                                               Medicaid
    State                          CMS Region                                      Managed Care                     Enrolled in
                                                             Enrollment
                                                                                     Enrollment                   Managed Care
    Tennessee                      Region IV                   1,207,136               1,207,136                          100%
    Vermont                        Region I                      141,260                    128,571                            91%
    Arizona*                       Region IX                   1,048,635                    949,404                            91%
    Hawaii                         Region IX                     211,105                    166,948                            79%
    Oregon                         Region X                      417,946                    306,957                            73%
    New Jersey*                    Region II                     914,503                    659,586                            72%
    Ohio*                          Region V                    1,783,993                  1,274,549                            71%
    Delaware*                      Region III                    152,899                    106,267                            70%
    Maryland*                      Region III                    710,790                    491,274                            69%
    Indiana*                       Region V                      881,888                    582,714                            66%
    Alabama                        Region IV                     764,914                    504,466                            66%
    Connecticut                    Region I                      435,419                    284,465                            65%
    New York                       Region II                   4,147,101                  2,685,186                            65%
    Michigan                       Region V                    1,547,246                    993,832                            64%
    District of Columbia           Region III                    146,072                      92,985                           64%
    Minnesota                      Region V                      617,397                    385,025                            62%
    New Mexico                     Region IV                     472,629                    292,456                            62%
    Rhode Island*                  Region I                      178,119                    110,195                            62%
    Georgia                        Region IV                   1,271,355                    723,621                            57%
    Virginia                       Region III                    753,714                    419,904                            56%
    Washington*                    Region X                      960,881                    515,545                            54%
    Pennsylvania                   Region III                  1,833,489                    968,887                            53%
    Wisconsin                      Region V                      907,455                    472,612                            52%
    California                     Region IX                   6,606,893                  3,388,651                            51%
    Kansas                         Region VII                    278,705                    132,832                            48%
    Nevada*                        Region IX                     188,831                      88,871                           47%
    West Virginia                  Region III                    311,064                    138,699                            45%
    Texas*                         Region VI                   3,041,201                  1,311,046                            43%
    Missouri                       Region IV                     833,112                    345,868                            42%
    Florida*                       Region IV                   2,276,014                    878,067                            39%
    Massachusetts                  Region I                    1,155,134                    402,469                            35%
    Utah                           Region VIII                   208,009                      59,904                           29%
    South Carolina                 Region IV                     689,338                    184,526                            27%
    Kentucky                       Region IV                     731,911                    145,066                            20%
    Nebraska*                      Region VII                    202,297                      32,716                           16%
    Colorado*                      Region VIII                   429,895                      59,989                           14%
    Illinois                       Region V                    2,106,700                    164,100                              8%
    Iowa                           Region VII                    362,807                       4,764                             1%

 Note: States with an * are included in this evaluation.

 Source: Office of Inspector General Analysis of Centers for Medicare & Medicaid Services Medicaid Enrollment data as of June 30, 2008.




OEI-01-09-00550           MEDICAID MANAGED CARE: FRAUD         AND   ABUSE CONCERNS REMAIN DESPITE SAFEGUARDS                      17
          A P PEN D                                   x         B


          Agency Comments




          (4­
            ..........'.,.,....
                                    DEPARTMENT OF HEALTH & HUMAN SERVICES                                    Centers for Medicare & Medicaid Services


                                                                                                             Administrator
                                                                                                             Washinglon. DC 20201

                                  DATE:
                                               OCT 2 6 2011

                                  TO: 	         Daniel R. Levinson
                                                Inspector General
                                                                            /S/
                                  FROM: 	       Donald M. Berwick, M.D.
                                                Administrator

                                  SUBJECT: 	 Dffice ofInspector General (DIG) Draft Report: Medicaid Managed Care: Fraud
                                             and Abuse Concerns Remain Despite Safeguards (DEI-OI-09-00550)

                                  Thank you for the opportunity to review and comment on the DIG Draft Report entitled,
                                  "Medicaid Managed Care: Fraud and Abuse Concerns Remain Despite Safeguards (DEI-OJ-09.
                                  00550)." The objectives of the report are to determine--(I) To what extent selected Medicaid
                                  managed care entities (MCEs) took steps to meet Federal program integrity requirements; (2)
                                  How States oversee MCEs' fraud and abuse safeguards; and (3) The major concerns that MCEs
                                  and States have regarding fraud and abuse in Medicaid managed care. The DIG reviewed CMS'
                                  program integrity reviews for a sample of 13 States and 46 MCEs, collected questionnaires from
                                  45 MCEs, and conducted structured interviews with the 13 States and CMS.

                                  The DIG's report found that all MCEs in the sample reported taking steps to meet the Federal
                                  program integrity requirements, and all 13 States reported taking steps to oversee MCEs' fraud
                                  and abuse safeguards. However, MCEs and States remain concerned about the prevalence of
                                  fraud and abuse in managed care.

                                  OIG Recommendation

                                  The CMS should require that State contracts with MCEs include a method to verify with
                                  beneficiaries whether services billed by providers were received.

                                  CMS Response

                                  The CMS concurs with DIG's recommendation to implement a mechanism for verifying that
                                  billed services are delivered. Title 42 CFR §455.20 already requires States to implement a
                                  method for verifying with recipients whether services billed by providers were actually received,
                                  but the regulation does not prescribe the method States must use. This language gives the States
                                  flexibility to determine the most effective -. and cost·effective·· mechanisms for accomplishing
                                  this, consistent with their administrative infrastructure, delivery systems and beneficiary
                                  popUlations. Consistent with DIG's recomtnendation, CMS will advise States to work with their
                                  MCEs to determine and implement effective strategies for verifying that services billed by
                                  network providers are received and CMS will work with States to identify efficient and effective
                                  strategies based on States and MCE experiences. CMS appreciates the work of the DIG in




OEI·01·09·00550                   MEDICAID MANAGED CARE:     FRAUD AND ABUSE CONCERNS REMAIN DESPITE SAFEGUARDS                            18
A   P P    E      N   D I   X   ~   B




OEI-01-09-00550        MEDICAID MANAGED CARE: FRAUD   AND   ABUSE CONCERNS REMAIN DESPITE SAFEGUARDS   19
   A C K N O W L E D G M E N T S

                  This report was prepared under the direction of Joyce M. Greenleaf,
                  Regional Inspector General for Evaluation and Inspections in the
                  Boston regional office, and Russell W. Hereford, Deputy Regional
                  Inspector General.
                  Ivan Troy served as the team leader for this study. Other principal
                  Office of Evaluation and Inspections staff from the Boston regional
                  office who contributed to the report include Alyson J. Cooper and
                  Shreya M. Patel; other central office staff who contributed include Kevin
                  Manley and Tasha Trusty.




OEI-01-09-00550   MEDICAID MANAGED CARE: FRAUD   AND   ABUSE CONCERNS REMAIN DESPITE SAFEGUARDS   20
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health & Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
